June 30, 2000
Audit Report No. 00-025


Audit of the Northeast Service Center’s
Collateral Vault
Federal Deposit Insurance Corporation
1201 W. Peachtree St., NE, Suite 1800                                                                Office of Audits
Atlanta, Georgia 30309                                                                   Office of Inspector General



   DATE:            June 30, 2000

   TO:              A. J. Felton, Deputy Director
                    Division of Resolutions and Receiverships
                    Dallas Field Operations Branch



   FROM:            Carl S. Mays
                    Regional Director

   SUBJECT: Audit of the Northeast Service Center’s Collateral Vault (Audit Report No. 00-025)

   This report presents the results of the Office of Inspector General’s (OIG) audit of the Northeast
   Service Center's (NESC) collateral vault. The audit addressed whether the NESC’s collateral and
   safekeeping inventory reports accurately matched the contents of the NESC’s collateral vault.
   We performed this audit because the NESC’s workload will transfer to the Dallas Office by
   June 30, 2000. Accordingly, the need for an accurate vault inventory is even greater because of
   the institutional knowledge that will be lost when the NESC closes.


   BACKGROUND

   The Federal Deposit Insurance Corporation’s (FDIC) Division of Resolutions and Receiverships
   (DRR) has responsibility for managing and disposing of the assets of failed financial institutions.
   DRR's Notes, Collateral, and Safekeeping Department in Receivership Management (Customer
   Service) has the specific responsibility for maintaining the NESC’s collateral vault.

   The DRR Collateral and Document Procedure Manual requires DRR to track collateral items and
   documents from failed financial institutions through collateral inventory systems. DRR used
   Liquidation Asset Management Information System1 (LAMIS) numbers for tracking collateral
   from receipt through the placement of collateral into sales initiatives and returning of the
   collateral to the rightful owner. Three computerized systems are used to track collateral and
   capture information such as the financial institution's name, financial institution's number,
   borrower’s name, asset number/LAMIS number, and a detailed description of each piece of
   collateral. Those systems and their purposes are:

         •   Safekeeping System: accounts for jewelry, money, documents, savings bonds, and other
             valuable items taken from safety deposit boxes at the time the FDIC closes a financial
             institution.


   1
    The FDIC replaced LAMIS with the National Processing System (NPS). At the time of conversion, NPS used the
   existing LAMIS numbers as NPS numbers.
     •   Possessory Collateral System: accounts for possessory (negotiable) collateral such as
         certificates of deposit, stocks, and bonds.

     •   Collateral Vault-REMATS: accounts for nonnegotiable collateral such as security
         agreements, guarantees, and nonnegotiable securities.

During 1997 and 1999, DRR’s Office of Internal Review (OIR) performed three reviews
specifically related to the NESC’s collateral vault. A report issued February 10, 1998 compared
the vault file contents to the description on the applicable inventory reports. OIR recommended
that the NESC (1) inventory the files and create an accurate database and (2) prepare an accurate
and complete inventory sheet for each collateral file and provide a more detailed description of
items on the safekeeping system. OIR additionally recommended that vault personnel attempt to
identify and notify owners of safekeeping items and then escheat or destroy the safekeeping
contents in accordance with state statute.

On June 24, 1999, OIR issued a report on a review to determine compliance with all directives,
policies, and procedures relative to the Chief Financial Officers Act (CFOA) and the
implementation of effective internal control programs and systems. Specifically, it reviewed a
CFOA high-risk element: “Notes, Collateral, and Safekeeping items are not properly inventoried
and safeguarded.” OIR did not find any compliance exceptions with its review of possessory and
safekeeping items. However, during OIR’s review, DRR’s Customer Service Department
identified a 10-percent error rate between the nonnegotiable collateral file and the corresponding
inventory report. Customer Service immediately initiated a project to correct the errors between
the files and the nonnegotiable collateral database.

Before issuing its report on June 24, 1999, OIR performed a follow-up to Customer Service’s
review and found a 6-percent error rate. Accordingly, OIR continued to withhold certifying
nonnegotiable collateral to NESC’s management pending Customer Service’s completion of the
correction project.


OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether the NESC maintained an accurate inventory of its
collateral vault. To accomplish our objective, we interviewed NESC personnel, reviewed OIR
reports and working papers specifically related to the collateral vault, and compared samples of
possessory and nonnegotiable collateral and safekeeping items to the inventory records.

Our review disclosed that the inventory for possessory collateral contained over $7.9 million in
certificates of deposit, savings passbooks, and money market accounts from financial institutions
that subsequently failed—some of which failed over 7 years earlier. Because those instruments
are readily convertible to cash, we expanded the scope of our audit to determine the status of that
collateral. Accordingly, we selected a sample of 10 high-dollar items of possessory collateral,
which we provided to the Regional Manager for Credit to determine the status of those items.




                                                 2
We determined the audit universe and both randomly and judgmentally selected samples from
reports provided by Customer Service for possessory and nonnegotiable collateral and
safekeeping items. Table 1 summarizes the universe and our samples taken from the inventory
reports, vault folders, and contractor files that were stored in the collateral vault as of
November 29, 1999.

Table 1: Collateral Vault Universe as of November 29, 1999, and OIG Audit Samples
                                 Universe
                                                           Sample Taken from
                                   per                                                  Total
                                Inventory       Inventory        Vault    Contractor   Sample
      Inventory Type             Reports         Reports        Folders     Files      Taken

Safekeeping items                    276             18            5           0          23
Possessory collateral                901             58           10           0          68
Nonnegotiable collateral           3,291             100          12           11        123
Total                              4,468             176          27           11        214
Source: NESC’s inventory reports and OIG analysis.



We both randomly and judgmentally selected and reviewed 23 of 276 (8 percent) safekeeping
records, 68 of 901 (8 percent) possessory collateral items, and 123 of 3,291 (4 percent)
nonnegotiable collateral items. Included in the 68 possessory collateral items are 10 items of
possessory collateral with LAMIS numbers that we selected, based on high-dollar values. Of the
123 nonnegotiable collateral items, we purposely selected 11 Knutson-managed collateral items,
8 of which did not have LAMIS numbers, because Customer Service had not incorporated the
Knutson folders into the nonnegotiable file cabinet. Vault personnel stated that Knutson, a
terminated loan servicer, sent the collateral items to the NESC’s collateral vault upon termination
of its contract. In addition to comparing those items between the collateral reports and vault
folders, we had the NESC’s Regional Manager for Credit provide status reports on the disposition
of the 10 items of possessory collateral and 11 Knutson-managed collateral folders.

When an outcard was in the place of a vault folder, we requested back-up documentation on the
current location of the collateral. Because bulk sales accounted for most of the outcards, we
obtained the lists of assets for the designated bulk sales and verified the asset name to the
applicable bulk sales list.

We did not evaluate DRR's internal controls over the collateral vault because

     •   OIR's CFOA review dated June 24, 1999 found no material weaknesses in the
         implementation of effective internal controls;

     •   the NESC was scheduled to close on June 30, 2000; and




                                                      3
         •   we concluded that we could meet the audit objectives more efficiently by conducting
             substantive tests.

We conducted the audit from November 1999 to January 2000 in accordance with generally
accepted government auditing standards.


RESULTS OF AUDIT

The NESC’s safekeeping report accurately listed safekeeping items. However, possessory and
nonnegotiable collateral did not always have identification numbers that linked that collateral to
associated loans. In addition, possessory and nonnegotiable collateral items that the NESC
should have removed from the vault were not released and were still listed in the collateral
reports. Moreover, the nonnegotiable collateral report continued to have large numbers of
errors. The NESC’s management generally took immediate action to correct discrepancies that
we identified.


NESC’s Collateral Report Did Not Always Have Related Loan Numbers

In the NESC’s possessory collateral report dated November 30, 1999, 37 percent (337 of 906)2
of the items of possessory collateral had no LAMIS or other identification number. Similarly,
30 percent (975 of 3,291) of the items of nonnegotiable collateral had bar codes instead of
LAMIS numbers.3 Without a LAMIS number, when a loan disposition takes place, the credit
specialist may not know that the loan has collateral and that he or she needs to authorize the
release of that collateral to the rightful owner. Upon notification, the NESC’s Regional Manager
for Operations took immediate action. He assigned staff to determine the LAMIS number for
each possessory collateral item and establish the status of the collateral.


NESC Maintained Collateral Documents After the Disposition of Associated Assets

The NESC’s vault contained over $42 million in (1) certificates of deposits, passbooks, and
money market certificates; (2) cosurety and state housing authority bonds; and (3) publicly
traded stocks that were pledged as collateral. Many items were from financial institutions that
failed over 7 years earlier. In addition, we found nonnegotiable collateral previously managed
by Knutson, a terminated loan servicer. Although the loans associated with that collateral were
paid, compromised, or written off, the NESC had not removed the underlying collateral from
either the vault or the possessory and nonnegotiable collateral databases. Accordingly, collateral
documents were maintained after the disposition of the associated loans.




2
    The printed version of the negotiable collateral report had 901 items, but the electronic version contained 906 items.
3
The Collateral Vault-REMATS computer system automatically assigns REMATS bar code locator numbers when
DRR personnel do not enter LAMIS numbers into the nonnegotiable inventory.


                                                             4
In response to our request for information on the status of 10 high-dollar, possessory items, the
Regional Manager for Credit found that NESC had accounted for all 10 items but did not dispose
of them. For example, the FDIC liquidated five certificates of deposit and savings passbooks
totaling $1.1 million and applied the proceeds to the loan balances. In addition, an institution
offset a $200,000 certificate of deposit against the loan before the institution failed. However,
the NESC kept each document in the collateral vault after they had been used to reduce the
amounts of the related loans.

In response to our request for information on the status of 10 Knutson-managed, nonnegotiable
collateral items, the NESC’s Regional Manager for Credit found that

     •   five of the nonnegotiable items (e.g., mortgages and security deeds of trust) were sold
         and the collateral documents were returned in error to the FDIC;

     •   the FDIC could not locate any information on three of the nonnegotiable items; and

     •   the FDIC properly wrote off two nonnegotiable items in 1997 and 1998, respectively.

In commenting on the reviews of the high-dollar, possessory and Knutson-managed,
nonnegotiable collateral items, the NESC’s Regional Manager for Credit stated that DRR should
research the collateral in the vault and determine which items it should remove.


NESC’s Nonnegotiable Collateral Report Was Not Accurate

Excluding the Knutson errors mentioned above, our December 1999 analysis showed an error rate
in the nonnegotiable collateral report of 29 percent (33 of the 112 sampled items). In June 1999,
Customer Service found a 10-percent error rate in the nonnegotiable collateral report and
immediately initiated a project to correct the errors. Before issuing a report on June 24, 1999,
OIR followed up on Customer Service’s review and found that the error rate had decreased to
6 percent. However, OIR withheld from the NESC’s management a certification that
nonnegotiable collateral was accurate, pending total correction of the files and database by
Customer Service.

With regard to our December 1999 analysis, we found that vault personnel had placed outcards in
vault folders for 31 items of collateral recently checked out to the NESC’s Asset Sales for
inclusion in scheduled bulk sales. The FDIC subsequently sold the 31 assets, but vault personnel
did not pull the outcards and update the nonnegotiable collateral report to reflect the sale. Vault
personnel sent another asset to a servicer but did not update the nonnegotiable collateral report to
reflect that transfer. For the last asset, the required inventory list was not in the file folder. After
we notified Customer Service of the 33 errors, vault personnel immediately corrected the vault
folders and nonnegotiable collateral database for those errors.




                                                   5
CONCLUSIONS AND RECOMMENDATIONS

The NESC’s safekeeping inventory was accurate. However, the NESC’s collateral reports for
reporting inventories of possessory and nonnegotiable collateral were not reliable.
Approximately 37 percent of the possessory collateral and 30 percent of the nonnegotiable
collateral reports did not contain LAMIS numbers. The possessory and nonnegotiable collateral
file folders and related inventory reports contained items that should have been removed from
the collateral vault but were still there. Those items included collateral for assets that DRR had
sold, compromised, settled, paid in full, sent to a loan servicer, or foreclosed. Finally, the
nonnegotiable collateral report also had a high error rate. Accordingly, we recommend that the
Regional Director, NESC, take the following actions:

     (1) Continue to identify the missing LAMIS numbers for the possessory and nonnegotiable
         collateral items.

     (2) Continue to identify the status of the possessory and nonnegotiable collateral items
         and, as applicable, correct the collateral databases and return the items to the rightful
         owner.

     (3) Notify the DRR Dallas Office of any unresolved discrepancies that the NESC transfers
         to that office.


CORPORATION COMMENTS AND OIG EVALUATION

On June 8, 2000, the Deputy Director, DRR, Dallas Field Operations Branch, provided a written
response to a draft of this report. The Deputy Director stated that senior NESC management was
aware of the inaccuracy of the NESC’s collateral inventory since late 1996 and had been
working on a long-term resolution plan. According to the Deputy Director, the resolution plan
included regular follow-up reporting and reviews by the NESC’s Internal Review Department.
The Deputy Director also indicated that final actions on the recommendations were completed.

The Deputy Director’s response agreed with the recommendations in the draft report and
provided the requisites for a management decision on each of the three recommendations. The
Deputy Director’s response is not summarized because the actions planned or completed are
identical to those recommended. The response is presented as appendix I to this report.

Appendix II presents management’s proposed action on our recommendations and shows that
there is a management decision for each recommendation in this report.




                                                 6
                                                                                          APPENDIX I


Federal Deposit Insurance Corporation
101 East River Drive, P.O. Box 280402, East Hartford, CT 06128          Division of Resolutions and Receiverships

                                                                                             June 8, 2000

TO:                   Carl S. Mays
                      Regional Director
                      Office of Audits
                      OIG


FROM:                 A.J. Felton
                      Deputy Director Field Offices
                      Division of Resolutions and Receiverships
                      Dallas Field Office Branch, Dallas, Texas

SUBJECT:              Response to OIG Draft Report on the Audit of the Northeast Service Center's
                      Collateral Vault, Audit Number 99-106


Regarding the subject draft report dated May 18, 2000, we are submitting our response directly
to you for consideration, in response to the OIG 's conclusions and recommendations.

Senior management of the Northeast Service Center (NESC) was aware of the "inaccuracy of
NESC's collateral inventory" since late 1996. Beginning in 1996 the Operations Department
presented the Regional Director with a long-term resolution plan; subsequently, the collateral
vault personnel were required to provide the NESC senior management Audit Committee with
regular follow-up reports on the status of all actions taken to correct the identified deficiencies
during 1997 and 1998. Additionally, senior management requested the Internal Review
Department of the NESC to complete a comprehensive review of the collateral vault unit in
1997, with two follow-up reviews scheduled in 1998, and a comprehensive review scheduled in
1999. The NESC management and personnel were committed to correcting all collateral vault
deficiencies.

We believe the result of the NESC’s continued commitment to resolving these deficiencies is
reflected in the most recent review of this area. The Customer Service/Collateral Vault/Research
Review of the NESC, conducted by the Office of Internal Review, DRR Dallas Field Office
Branch, (DFOB) in March/April 2000, determined an overall error rate of zero (0.00%) percent.
This review was performed specifically for the office closing and consolidation of the NESC into
the DFOB by June 30, 2000.

Hence, our are response to the OIG recommendations are the following:

Recommendation #1: "Continue to identify the missing LAMIS numbers for the possessory
and non-negotiable collateral items."

§    Recommendation completed on March 28, 2000.
                                                                 7
Recommendation #2: "Continue to identify the status of the possessory and non-negotiable
collateral items and, as applicable, correct the collateral databases and return the items to the
rightful owner."

§   Recommendation completed March 22, 2000.


Recommendation #3: "Notify the DRR DFOB of any unresolved discrepancies that the NESC
transfers to that office."

§   Recommendation completed effective April 19, 2000.


The NESC successfully coordinated its efforts with the DFOB to ensure an accurate and
complete inventory of NESC possessory, non-negotiable collateral items, and safekeeping items
for transfer. Personnel from the DFOB completed the inventory of the NESC's collateral vault
and boxed and sealed the inventory for shipment on April 19, 2000. On April 25, 2000, all of the
NESC collateral vault inventory was transferred to DFOB. Larry Greer, of the Inwood Branch
of the DFOB, confirmed receipt of the shipment on April 28, 2000.




Cc: John Recchia
    Rick Hoffman




                                               8
                                                                                                                                             APPENDIX II

                                         MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

     •   the specific corrective actions already taken, if applicable;

     •   corrective actions to be taken together with the expected completion dates for their implementation; and

     •   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The
information for management decisions is based on management's written response to our report.

                                                                                        Expected      Documentation That                      Management
   Rec.                                                                                Completion     Will Confirm Final          Monetary     Decision:
  Number                Corrective Action: Taken or Planned / Status                      Date              Action                Benefits     Yes or No
     1        The Deputy Director responded that the NESC has identified                03/28/00    Collateral inventory report     -0-          Yes
              missing LAMIS numbers for its possessory and nonnegotiable                            showing a LAMIS number
              collateral items.                                                                     for each item.
     2        The Deputy Director responded that the NESC has determined the            03/22/00    Collateral inventory report     -0-          Yes
              current status of its possessory and nonnegotiable collateral                         showing the status of each
              inventory items, corrected its collateral database, and returned items                item.
              to rightful owners, as appropriate.



                                                                                 9
                                                                              Expected      Documentation That                     Management
 Rec.                                                                        Completion     Will Confirm Final          Monetary    Decision:
Number            Corrective Action: Taken or Planned / Status                  Date              Action                Benefits    Yes or No
  3      The Deputy Director responded that the NESC has successfully         04/19/00    Dallas office’s receiving       -0-         Yes
         coordinated with the DRR, Dallas office to ensure an accurate and                report for NESC’s
         complete inventory of the NESC’s possessory and nonnegotiable                    collateral vault inventory.
         collateral and safekeeping items for transfer. He added that the
         NESC’s collateral vault inventory was boxed and sealed for
         shipment to the Dallas office on April 19, 2000.




                                                                        10
